No. ______
In the

Supreme Court of the United States
__________________
SHRINIVAS SUGANDHALAYA LLP,
Petitioner,
v.
BALKRISHNA SETTY, individually and as
general partner in Shrinivas Sugandhalaya
Partnership with Nagraj Setty; SHRINIVAS
SUGANDHALAYA (BNG) LLP, et al.,
Respondents.
__________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
Brian W. Esler
Counsel of Record
MILLER NASH GRAHAM & DUNN, LLP
2801 Alaskan Way, Suite 300
Seattle, WA 98121
(206) 624-6300
brian.esler@millernash.com
Counsel for Petitioner

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTIONS PRESENTED
1. Does the Convention on the Recognition and
Enforcement of Foreign Arbitral Awards (the “New
York Convention”) permit a nonsignatory to an
arbitration agreement to compel arbitration based on
the doctrine of equitable estoppel or similar principles
of applicable law?
2. Is a foreign defendant’s right to stay litigation
under Section 3 of the Federal Arbitration Act (9 U.S.C.
§ 3) conditioned upon that defendant’s right to compel
arbitration?

ii
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT
Shrinivas Sugandhalaya LLP (“SS LLP”), an Indian
limited liability partnership, is the petitioner here, and
was a defendant below. No publicly owned corporation
owns 10 percent or more of SS LLP’s stock.
Balkrishna Setty, a resident and citizen of India
(individually and as general partner in Shrinivas
Sugandhalaya Partnership, an Indian partnership) is
a respondent here, and was a plaintiff/counterclaim
defendant below.
Shrinivas Sugandhalaya (BNG) LLP (“BNG LLP”),
an Indian limited liability partnership, is a respondent
here, and was a plaintiff/counterclaim defendant below.
R. Expo (USA) Ltd., Inc., a Washington corporation,
is a respondent here, and was a defendant and
counterclaim/third-party claim plaintiff below.
Designs by Dee Kay, Inc., a California Corporation,
is a respondent here, and was a third-party claim
defendant below.

iii
STATEMENT OF RELATED PROCEEDINGS
• Setty et al. v. Shrinivas Sugandhalaya et al., No. 18355573 (9th Cir.) (memorandum decision affirming
District Court’s denial of motion to stay or compel
arbitration issued on June 3, 2019; petition for
rehearing and/or rehearing en banc denied
August 12, 2019).
• Setty et al. v. Shrinivas Sugandhalaya et al.,
No. 2:17-cv-01146-RAJ (W.D. Wash.) (order denying
motion to stay or compel arbitration issued June 21,
2018; order granting motion to stay pending appeal
and denying motion to stay pending arbitration
issued November 15, 2018).
There are no additional proceedings in any court
that are directly related to this case.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING AND RULE 29.6
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 4
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
STATUTORY AND OTHER PROVISIONS
INVOLVED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
REASONS FOR GRANTING THE WRIT. . . . . . . . 15
I.

THE COURTS OF APPEALS ARE DIVIDED
ON WHETHER NONSIGNATORIES CAN
COMPEL ARBITRATION UNDER THE
NEW YORK CONVENTION. . . . . . . . . . . . . 17
A. The First and Fourth Circuits Have Held
That Nonsignatories Can Enforce
Arbitration Agreements Under the New
York Convention. . . . . . . . . . . . . . . . . . . . 17
B. The Ninth and Eleventh Circuits Have
Held That Nonsignatories Cannot Enforce
Arbitration Agreements Under the New
York Convention. . . . . . . . . . . . . . . . . . . . 19

v
II.

THE NINTH CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S
DECISIONS REGARDING THE RIGHT TO
A STAY UNDER SECTION 3 OF THE FAA.
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

III.

THE QUESTIONS PRESENTED ARE
IMPORTANT. . . . . . . . . . . . . . . . . . . . . . . . . 27

IV.

THE NINTH CIRCUIT’S DECISION IS
WRONG. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
APPENDIX
Appendix A Memorandum in the United States
Court of Appeals for the Ninth Circuit
(June 6, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court, Western District of Washington
at Seattle
(November 15, 2018) . . . . . . . . . . . App. 5
Appendix C Order in the United States District
Court, Western District of Washington
at Seattle
(June 21, 2018) . . . . . . . . . . . . . . App. 13
Appendix D Order Denying Petition for Rehearing
and Petition for Rehearing En Banc in
the United States Court of Appeals for
the Ninth Circuit
(August 12, 2019) . . . . . . . . . . . . App. 20

vi
Appendix E Deed of Partnership
(December 24, 1999) . . . . . . . . . . App. 22

vii
TABLE OF AUTHORITIES
CASES
26th Street Hospitality, LLP v. Real Builders, Inc.,
879 N.W.2d 437 (N.D. 2016). . . . . . . . . . . . . . 9, 10
Aggarao v. MOL Ship Mgmt. Co.,
675 F.3d 355 (4th Cir. 2012). . . . . . . . . . . . . 18, 19
Alghanim v. Alghanim,
828 F. Supp. 2d 636 (S.D.N.Y. 2011) . . . . . . . . . 23
Allianz Global Risk U.S. Ins. Co. v. Gen. Elec. Co.,
470 Fed. Appx. 652 (9th Cir. 2012) . . . . . . . . . . 27
Arthur Andersen LLP v. Carlisle,
556 U.S. 624 (2009). . . . . . . . . . . . . . . . . . . passim
Arthur Andersen, LLP v. Carlisle,
No. 08-146, 2008 WL 3199724 (U.S. Aug. 4,
2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011). . . . . . . . . . . . . . . . . . . . . . . . 8
AT&T Technologies, Inc. v. Communications
Workers,
475 U.S. 643 (1986). . . . . . . . . . . . . . . . . . . . . . . 32
BG Grp., PLC v. Republic of Argentina,
134 S. Ct. 1198 (2014). . . . . . . . . . . . . . . . . . . . . 30
Branch Manager, Magma Leasing and Finance Ltd.
and Anr. v. Potluri Madhavilata and Anr.,
(2009) 10 SCC 103 (Indian Supreme Court) . . . 32

viii
Cabinetree of Wis., Inc. v. Kraftmaid Cabinetry,
Inc.,
50 F.2d 388 (7th Cir. 1995). . . . . . . . . . . . . . . . . 22
Chloro Controls India (P), Ltd. v. Severn Trent
Water Purification, Inc.,
(2013) 1 SCC 641 . . . . . . . . . . . . . . . . . . . 3, 31, 32
Contracting NW v. City of Fredericksburg,
713 F.2d 382 (8th Cir. 1983). . . . . . . . . . . . . . . . 34
Corpman v. Prudential-Bache Securities, Inc.,
907 F.2d 29 (3rd Cir. 1990) . . . . . . . . . . . . . . . . 29
Dean Witter Reynolds, Inc. v. Byrd,
470 U.S. 213 (1985). . . . . . . . . . . . . . . . . . . . . . . 26
GE Power Conversion France SAS, Corp. v.
Outokumpu Stainless USA, LLC,
139 S. Ct. 2776 (Mem.) (U.S. Sup. Ct. June 28,
2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Henry Schein, Inc. v. Archer & White Sales, Inc.,
139 S. Ct. 524 (2019). . . . . . . . . . . . . . . . . . . . . . 30
Heyman v. Darwins, Ltd.,
[1942] A.C. 356 (House of Lords) . . . . . . . . . . . . 32
Int’l Paper Co. v. Schwabedissen Maschinen &
Anlagen GMBH,
206 F.3d 411 (4th Cir. 2000). . . . . . . . . . 18, 19, 20
Invista S.A.R.L. v. Rhodia, S.A.,
625 F.3d 75 (3rd Cir. 2010) . . . . . . . . . . . . . . 9, 29
Johnson Controls, Inc. v. Edman Controls, Inc.,
712 F.3d 1021 (7th Cir. 2013). . . . . . . . . . . . . . . . 8

ix
Matterhorn, Inc. v. NCR Corp.,
763 F.2d 866 (7th Cir. 1985). . . . . . . . . . . . . . . . 21
Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, Inc.,
473 U.S. 614 (1985). . . . . . . . . . . . . . . . . . . . 27, 29
Moses H. Cone Mem. Hosp. v. Mercury Constr.
Corp.,
460 U.S. 1 (1983). . . . . . . . . . . . . . . . . . . . 8, 17, 29
New Prime Inc. v. Oliveira,
No. 17-340, 2019 WL 189342 (U.S. Jan. 15,
2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
Outokumpu Stainless USA, LLC et al. v.
Converteam SAS,
902 F.3d 1316 (11th Cir 2018) . . . . . . . . . . . . . . 19
Scherck v. Alberto-Culver Co.,
417 U.S. 506 (1974). . . . . . . . . . . . . . . . . . . passim
Shanferoke Coal & Supply Corp. v. Westchester
Service Corp.,
293 U.S. 449 (1935). . . . . . . . . . . . . . . . . . . passim
Sourcing Unlimited, Inc. v. Asimco Int’l, Inc.,
526 F.3d 38 (1st Cir. 2008) . . . . . . . . . . . . . . 17, 18
The Anaconda v. American Sugar Refining Co.,
322 U.S. 42 (1944). . . . . . . . . . . . . 2, 15, 20, 22, 25
Yang v. Majestic Blue Fisheries, LLC,
876 F.3d 966 (9th Cir. 2017). . . . 13, 14, 19, 30, 33

x
STATUTES
Federal Arbitration Act, 9 U.S.C. § 1 et seq. . . passim
9 U.S.C. § 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
9 U.S.C. § 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
9 U.S.C. § 16 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
9 U.S.C. § 201 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7, 11
9 U.S.C. § 202 . . . . . . . . . . . . . . . . . . . . . . . . 2, 7, 8, 28
9 U.S.C. § 206 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
9 U.S.C. § 208 . . . . . . . . . . . . . . . . . . . . . . 8, 11, 19, 31
15 U.S.C. § 1121 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 1331 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
18 U.S.C. § 1338 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 5
28 U.S.C. § 1367 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
The Indian Arbitration and Conciliation
(Amendment) Act, 2015, § 4 . . . . . . . . . . . . . . 3, 32
The New York Convention Article II, § 1 . . . . . . 5, 11
The New York Convention
Article II, § 2 . . . . . . . . . . . . . . . . . . . . 6, 11, 13, 33
The New York Convention Article V, § 1(a) . . . . . . . 6

xi
OTHER AUTHORITIES
21 R. Lord, Williston on Contracts § 57:19 (4th
ed. 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 24, 31
RESTATEMENT (SECOND) OF CONFLICT OF LAWS
§§ 187, 218 (1989) . . . . . . . . . . . . . . . . . . . . . . . . 10
S. Rep. No. 536, 68th Cong., 1st Sess. 3 (1924) . . . . . 21

1
INTRODUCTION
Petitioner SS LLP asks the Court to review two
important issues involving the Federal Arbitration Act,
9 U.S.C. § 1 et seq. (the “FAA”). The first is whether
foreign nonsignatories to an arbitration agreement can
use equitable estoppel or similar principles of
applicable law to compel arbitration in federal courts.
The Ninth Circuit held categorically that “[a]s a nonsignatory, SS LLP may not compel arbitration under
the New York Convention.” Pet. App. at 3. This Court
recently granted a petition for a writ of certiorari to the
Eleventh Circuit to decide whether that statement is
correct. GE Power Conversion France SAS, Corp. v.
Outokumpu Stainless USA, LLC, 139 S. Ct. 2776
(Mem.) (U.S. Sup. Ct. June 28, 2019) (“GE Power”).
That case is set for argument on January 21, 2019. SS
LLP’s petition seeks review of the same issue out of the
Ninth Circuit, and this Court should grant SS LLP’s
petition on that issue for the same reasons.
But SS LLP also seeks review of a second issue
under Section 3 of the FAA that likely has broader
impact for both the enforcement of arbitration
agreements and federal civil procedure generally.
Section 3 gives parties in a lawsuit the right to stay
litigation if the opposing party is suing “upon any issue
referable to arbitration.” 9 U.S.C. § 3. SS LLP asks
this Court to affirm for foreign litigants the principle it
first announced for domestic litigants shortly after the
FAA was enacted: “there is no reason to imply that the
power to grant a stay [under Section 3 of the FAA] is
conditioned upon the existence of power to compel
arbitration . . .” Shanferoke Coal & Supply Corp. v.

2
Westchester Service Corp., 293 U.S. 449, 453 (1935). As
this Court subsequently explained, the “power to grant
a stay is enough without the power to order that the
arbitration proceed, for, if a stay be granted, the
plaintiff can never get relief unless he proceeds to
arbitration.”
The Anaconda v. American Sugar
Refining Co., 322 U.S. 42, 45 (1944).
The focus of Section 3 is on whether the opposing
party’s claims involve any issue “referable to
arbitration,” not on whether the moving party has the
right to compel arbitration. 9 U.S.C. § 3; accord Arthur
Andersen LLP v. Carlisle, 556 U.S. 624, 630-31 (2009)
(recognizing that the right to a stay under Section 3 is
not limited to parties to the arbitration agreement).
This Court’s previous guidance regarding Section 3
should apply with equal if not greater force when the
arbitration agreement is subject to the New York
Convention (i.e., is not “entirely between citizens of the
United States,” 9 U.S.C. § 202). But as explained
further below, this Court’s focus on domestic principles
of equitable estoppel (both in Arthur Andersen and in
the upcoming GE Power case) may have the
unintended effect of narrowing the circumstances in
which mandatory stays under Section 3 remain
available, especially for foreign litigants.
The facts of this case show why that is a danger.
Here, two residents and citizens of India, brothers
Nagraj and (respondent) Balkrishna Setty, are
embroiled in a dispute over their competing claims to
rights derived from a partnership they formed twenty
years ago in India (the “Partnership”). In their Deed of
Partnership, the brothers agreed to arbitrate:

3
ARBITRATION: All disputes of any type
whatsoever in respect of the partnership arising
between the partners either during the
continuance of this partnership or after the
determination thereof shall be decided by
arbitration as per the provision of the Indian
Arbitration Act, 1940 or any statutory
modification thereof for the time being in force.
Pet. App. 27.
Seeking to avoid that arbitration obligation but still
assert his alleged Partnership rights, respondents
Balkrishna Setty and his separate Indian company
(respondent BNG LLP) sued brother Nagraj Setty’s
separate company, petitioner SS LLP, for allegedly
using the Partnership’s intellectual property without
permission. But they deliberately did not sue Nagraj
Setty, who signed the Deed of Partnership.
SS LLP moved to (1) stay the litigation pursuant to
Section 3 and (2) compel arbitration pursuant to the
FAA and the New York Convention. As SS LLP
pointed out to the courts below, under Indian common
law and the current version of the Indian Arbitration
Act, nonsignatory SS LLP has the right to compel such
arbitration as a “person claiming through or under” a
signatory. The Indian Arbitration and Conciliation
(Amendment) Act, 2015, § 4; see also Chloro Controls
India (P), Ltd. v. Severn Trent Water Purification, Inc.
(2013) 1 SCC 641, ¶ 167 (Indian Supreme Court
decision holding that “[e]ven non-signatory parties to
[arbitral] agreements can pray and be referred to
arbitration”).

4
The District Court denied SS LLP’s motion.
Ignoring the Indian law that governs the arbitration
agreement, the District Court held that since SS LLP
was not a signatory to the Deed of Partnership, it had
no right to enforce the agreement’s arbitration
provisions or stay the litigation. Pet. App. 17-18. The
Ninth Circuit affirmed the District Court’s order. Pet.
App. 1-4.
Both the District Court and the Ninth Circuit
started their analysis by asking whether SS LLP—as
a nonsignatory to the arbitration agreement—could
compel arbitration. Both courts ignored Indian law on
that subject. Once they concluded that SS LLP did not
have the right as a nonsignatory to compel arbitration,
their analysis ended (with no separate analysis of SS
LLP’s request for stay under Section 3).
That faulty analysis, which conflates the right to
stay litigation with the right to compel arbitration, is
too often followed in one form or another by many other
federal courts. The Court should grant certiorari to
return Section 3’s jurisprudence to the original
principles this Court announced in 1935, and return
the focus to where Congress put it—simply, has the
party moving for a stay shown there is an issue
“referable to arbitration.” 9 U.S.C. § 3.
OPINIONS BELOW
The District Court’s order denying SS LLP’s motion
to stay and to refer the parties to arbitration (Pet.
App. 13-19) is unpublished but is available at 2018 WL
3064778 (W.D. Wash. June 21, 2018). The District
Court’s order granting SS LLP’s motion to stay pending

5
appeal but denying SS LLP’s motion to stay pending
arbitration (Pet. App. 5-12) is unpublished but is
available at 2018 WL 5994987 (W.D. Wash. Oct. 15,
2018). The Ninth Circuit’s memorandum decision
affirming the District Court’s denial of SS LLP’s motion
to stay or compel arbitration (Pet. App. 1-4) is available
at 771 Fed. Appx. 456 (9th Cir. 2019). The Ninth
Circuit’s decision denying SS LLP’s petition for
reconsideration or rehearing en banc (Pet. App. 20-21)
is unpublished.
JURISDICTION
The Ninth Circuit denied SS LLP’s petition for
reconsideration or rehearing en banc on August 12,
2019. SS LLP timely filed this petition within 90 days.
This Court has jurisdiction under 28 U.S.C. § 1254(1).
The District Court had original jurisdiction under 18
U.S.C. §§ 1331, 1338 and 15 U.S.C. § 1121, and
supplemental jurisdiction under 28 U.S.C. § 1367. The
Ninth Circuit had jurisdiction under 9 U.S.C. § 16.
STATUTORY AND OTHER
PROVISIONS INVOLVED
1. Article II, § 1 of the New York Convention
provides:
Each Contracting State shall recognize an
agreement in writing under which the parties
undertake to submit to arbitration all or any
differences which have arisen or which may
arise between them in respect of a defined legal
relationship, whether contractual or not,
concerning a subject matter capable of
settlement by arbitration.

6
2. Article II, § 2 of the New York Convention
provides: “The term ‘agreement in writing’ shall
include an arbitral clause in a contract or an
arbitration agreement, signed by the parties or
contained in an exchange of letters or telegrams.”
3. Article V, § 1(a)
Convention provides:

of

the

New

York

Recognition and enforcement of the award may
be refused, at the request of the party against
whom it is invoked, only if that party furnishes
to the competent authority where the
recognition and enforcement is sought, proof
that:
(a)
The parties to the agreement referred
to in article II were, under the law applicable
to them, under some incapacity, or the said
agreement is not valid under the law to
which the parties have subjected it or, failing
any indication thereon, under the law of the
country where the award was made;
4. 9 U.S.C. § 3 provides:
If any suit or proceeding be brought in any of the
courts of the United States upon any issue
referable to arbitration under an agreement in
writing for such arbitration, the court in which
such suit is pending, upon being satisfied that
the issue involved in such suit or proceeding is
referable to arbitration under such an
agreement, shall on application of one of the
parties stay the trial of the action until such
arbitration has been had in accordance with the

7
terms of the agreement, providing the applicant
for the stay is not in default in proceeding with
such arbitration.
5. 9 U.S.C. § 201 provides: “The Convention on
the Recognition and Enforcement of Foreign Arbitral
Awards of June 10, 1958, shall be enforced in United
States courts in accordance with this chapter.”
6. 9 U.S.C. § 202 provides:
An arbitration agreement or arbitral award
arising out of a legal relationship, whether
contractual or not, which is considered as
commercial, including a transaction, contract, or
agreement described in section 2 of this title,
falls under the Convention. An agreement or
award arising out of such a relationship which is
entirely between citizens of the United States
shall be deemed not to fall under the Convention
unless that relationship involves property
located abroad, envisages performance or
enforcement abroad, or has some other
reasonable relation with one or more foreign
states.
7. 9 U.S.C. § 206 provides: “A court having
jurisdiction under this chapter may direct that
arbitration be held in accordance with the agreement
at any place therein provided for, whether that place is
within or without the United States. Such court may
also appoint arbitrators in accordance with the
provisions of the agreement.”

8
8. 9 U.S.C. § 208 provides: “Chapter 1 applies to
actions and proceedings brought under this chapter to
the extent that chapter is not in conflict with this
chapter or the Convention as ratified by the United
States.”
STATEMENT
1. “Congress’ clear intent, in the Arbitration Act,
[was] to move the parties to an arbitrable dispute out
of court and into arbitration as quickly and easily as
possible.” Moses H. Cone Mem. Hosp. v. Mercury
Constr. Corp., 460 U.S. 1, 22 (1983). The FAA reflects
a “‘liberal federal policy favoring arbitration.’” AT&T
Mobility LLC v. Concepcion, 563 U.S. 333, 339 (2011)
(quoting Moses H. Cone Mem’l Hosp., 460 U.S. at 24).
Chapter 1 of the FAA “codifies the original Federal
Arbitration Act of 1925, 43 Stat. 883” and applies
generally to domestic agreements and awards. Johnson
Controls, Inc. v. Edman Controls, Inc., 712 F.3d 1021,
1024 (7th Cir. 2013). Chapter 2 of the FAA implements
the New York Convention, an international agreement
agreed to by 160 countries that provides baseline
standards for the enforcement of foreign arbitration
agreements or arbitral awards “when both or all
countries concerned are” parties to that Convention.
Id. at 1025-26; see http://www.newyorkconvention.org/
countries (last visited November 6, 2019).
All
arbitration agreements are presumed to fall under the
Convention; only those that arise out of a “relationship
which is entirely between citizens of the United States”
are excluded from the Convention’s coverage, if all
other factors are met. 9 U.S.C. § 202.

9
a. Chapter 1 makes written arbitration agreements
“valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the revocation
of any contract.” 9 U.S.C. § 2. By referring to “such
grounds as exist at law or in equity,” the FAA
incorporates “background principles of state contract
law regarding the scope of agreements (including the
question of who is bound by them).” Arthur Andersen,
556 U.S. at 630 (citation omitted). Chapter 1 therefore
permits enforcement of an arbitration clause “against
(or for the benefit of) a third party”—i.e., a
nonsignatory—if enforcement would be permitted
“under state contract law.” Id. at 631.
Such “background principles” of domestic law
include “‘assumption, piercing the corporate veil, alter
ego, incorporation by reference, third-party beneficiary
theories, waiver and estoppel.’” Id. (quoting 21 R. Lord,
Williston on Contracts § 57:19, p. 183 (4th ed. 2001)).
Concepts such as equitable estoppel prevent a party
from “cherry-picking” the beneficial provisions of the
contract while trying to avoid detrimental provisions
(such as the requirement to arbitrate disputes.) Invista
S.A.R.L. v. Rhodia, S.A., 625 F.3d 75, 85 (3rd Cir. 2010).
For example, in a situation analogous to the dispute
here, a court allowed a nonsignatory to use equitable
estoppel to invoke a partnership agreement’s
arbitration clause in a suit brought by the partnership.
26th Street Hospitality, LLP v. Real Builders, Inc.,
879 N.W.2d 437 (N.D. 2016). The partnership sued one
of the individual signatory partners and the
nonsignatory company, arguing that the individual
partner had contracted with the nonsignatory company

10
without the partnership’s permission. Because the
partnership’s “claims [were] intertwined with [the
individual partner’s] power or authority under the
Partnership Agreement,” the court explained, “[i]t
would be inequitable to allow the Partnership to rely on
the Partnership Agreement in formulating its claims
but to disavow the availability of the arbitration
provision of that same agreement because [the thirdparty company] was not a signatory to the agreement.”
Id. at 449.
Of course, when the arbitration agreement at issue
is governed by the laws of another jurisdiction (as here,
the laws of India), the “background principles” that a
court must consider include the principles of contract,
agency and arbitration law in that foreign jurisdiction.
Scherck v. Alberto-Culver Co., 417 U.S. 506, 516 (1974);
see also RESTATEMENT (SECOND) OF CONFLICT OF LAWS
§§ 187, 218 (1989) (noting a forum court determining
rights arising from an arbitration agreement governed
by foreign law should apply the applicable foreign law
to the contract in order to effectuate the intent of the
parties).
Chapter 1 also allows district courts to stay
litigation upon the application of “one of the parties”
when the litigation involves an “issue referable to
arbitration under an agreement in writing for such
arbitration.” 9 U.S.C. § 3. This section applies even if
the arbitration agreement is otherwise subject to the
Convention, as the Convention has no provisions
governing stays. Scherk, 417 U.S. at 511 n.5 (1974).
The “parties” referred to in Section 3 are the parties to

11
the litigation, not the parties to the arbitration
agreement. Arthur Andersen, 556 U.S. at 630 n.4.
b. Chapter 2 of the FAA implements the New York
Convention in United States courts. See 9 U.S.C.
§ 201. “The goal of the Convention, and the principal
purpose underlying American adoption and
implementation of it, was to encourage the recognition
and enforcement of commercial arbitration agreements
in international contracts and to unify the standards by
which agreements to arbitrate are observed and
arbitral awards are enforced in the signatory
countries.” Scherk, 417 U.S. at 520 n.15. To that end,
the Convention requires that “[e]ach Contracting State
shall recognize an agreement in writing under which
the parties undertake to submit to arbitration.”
Convention, Art. II § 1. The Convention defines
“agreement in writing” to “include an arbitral clause in
a contract or an arbitration agreement, signed by the
parties.” Convention, Art. II § 2.
The Convention’s implementing provisions in
Chapter 2 of the FAA incorporate the background
principles set forth in Chapter 1. “Chapter 1 applies to
actions and proceedings brought under” the Convention
and related provisions, “to the extent that chapter is
not in conflict” with them. 9 U.S.C. § 208.
2. Twenty years ago, brothers Nagraj and
(respondent) Balkrishna Setty formed a partnership in
India to carry on their father’s incense business. In the
brothers’ Deed of Partnership (Pet. App. 22-28), the
brothers agreed that they would arbitrate all disputes
concerning their rights in the Partnership:

12
ARBITRATION: All disputes of any type
whatsoever in respect of the partnership arising
between the partners either during the
continuance of this partnership or after the
determination thereof shall be decided by
arbitration as per the provision of the Indian
Arbitration Act, 1940 or any statutory
modification thereof for the time being in force.
Pet. App. 27. The brothers, the Partnership and their
respective companies continue to be domiciled in India.
In late 2014, “control of the manufacturing of
incense products was effectively transferred from the
Partnership to its partners,” respondent Balkrishna
Setty and (nonparty) Mr. Nagraj Setty. Pet. App. 14.
Respondent Balkrishna Setty then formed respondent
BNG LLP in 2014 in Bangalore, India to continue
manufacturing and selling incense products; (nonparty)
Nagraj Setty formed petitioner SS LLP in Mumbai,
India shortly thereafter for the same purpose. Pet.
App. 14-15. Since then, the brothers have had various
disputes over their (and their companies’) respective
rights in the Partnership’s trademarks, trade dress and
other assets. Pet. App. 15. Those disputes ultimately
led to this litigation.
3. Respondents Balkrishna Setty and BNG LLP
initially sued SS LLP in federal court in Alabama. In
the caption of his action, respondent Balkrishna Setty
alleged that he is bringing all claims “individually and
as general partner in Shrinivas Sugandhalaya
Partnership with Nagraj Setty.” E.g., Pet. App. 1.

13
After the case transferred to the Western District of
Washington, SS LLP moved to stay or dismiss the
litigation in favor of arbitration, and to refer the
parties to arbitration in India. The District Court
eventually denied SS LLP’s motion, holding that
because SS LLP was not a signatory to the Deed of
Partnership, it could neither compel arbitration nor
stay the case. Pet. App. 13-19.
In the meantime, after failed mediation efforts in
India and a breached settlement agreement with his
brother Balkrishna, Nagraj Setty formally initiated
arbitration proceedings in India, which process is
ongoing. SS LLP filed a new motion to stay. The
District Court denied that motion as well, although it
did stay the litigation while SS LLP appealed. Pet.
App. 5-12.
4. The Ninth Circuit affirmed the District Court’s
denial of SS LLP’s motion to stay and to compel
arbitration. Pet. App. 1-4.
The Ninth Circuit’s decision here relied exclusively
on the Circuit’s previous decision in Yang v. Majestic
Blue Fisheries, LLC, 876 F.3d 966 (9th Cir. 2017),
which held that nonsignatories to an arbitration
agreement governed by the New York Convention have
no right to compel arbitration. In Yang, the Ninth
Circuit determined that the Convention’s definition of
an “agreement in writing” was limited to an agreement
“signed by the parties or contained in an exchange of
letters or telegrams.” Yang, 876 F.3d at 999 (quoting
New York Convention, art. II(2)) (emphasis in original).
Thus, the Ninth Circuit in Yang concluded that the
Convention categorically bars foreign nonsignatories

14
from seeking to compel arbitration. Yang, 876 F.3d at
1001.
Following its precedent in Yang, the Ninth Circuit
here held that “[a]s a non-signatory, SS LLP may not
compel arbitration under the New York Convention.”
Pet. App. 3. The Ninth Circuit also held that SS LLP
could not rely on any other “traditional principles” of
state law—such as equitable estoppel—because it was
a nonsignatory: “Under the FAA, a non-signatory may
invoke arbitration if state law permits. However,
where the FAA allows what the Convention prohibits,
the Convention controls.” Pet. App. 3 (internal
citations omitted). The Ninth Circuit ignored Indian
arbitration, agency and contract law altogether.
As to SS LLP’s original request for a stay of the
litigation under FAA Section 3,1 the Ninth Circuit held
that SS LLP’s ability to stay the litigation depended on
its right to compel arbitration: “Because the New York
Convention does not permit SS LLP to compel
arbitration, the District Court did not abuse its
discretion in denying a stay of proceedings pending
arbitration.” Pet. App. 4.
The Ninth Circuit denied SS LLP’s petition for
reconsideration or rehearing en banc. Pet. App. 20-21.
This petition followed.

1

The Ninth Circuit did not reach the propriety of SS LLP’s second
motion to stay the litigation after the arbitral process started in
India. Pet. App. 4.

15
REASONS FOR GRANTING THE WRIT
On the first issue presented, the Courts of Appeals
are split. The First and Fourth Circuits hold that the
Convention allows nonsignatories to compel a signatory
to arbitrate, based on “traditional principles” such as
equitable estoppel. But the Ninth and Eleventh
Circuits hold that the Convention categorically does not
allow nonsignatories to compel arbitration. This Court
has already granted a petition to decide that circuit
split in the GE Power case; it should grant SS LLP’s
petition on that issue as well.
But whether or not the Convention allows SS LLP,
as a nonsignatory, to compel arbitration with a
signatory, SS LLP should still have been entitled to
stay the litigation if the litigation involved “any
issue referable to arbitration.” 9 U.S.C. § 3. For that
stay request, SS LLP’s status as a nonsignatory should
not have mattered, and there could be no conflict with
the Convention, which has no provisions for stays of
litigation.
As this Court explained in the early years of the
FAA, a defendant’s right to a mandatory stay under
Section 3 is not conditioned on the right to compel
arbitration. Shanferoke Coal, 293 U.S. at 453; The
Anaconda, 322 U.S. at 45. More recently, this Court
again affirmed that nonsignatories such as SS LLP can
obtain such a mandatory stay (without citing those
earlier decisions). Arthur Andersen, 556 U.S. at 63031. But the certiorari petition in Arthur Andersen
presented the Section 3 issue solely in terms of
equitable estoppel. Hence, the Court’s analysis in
Arthur Andersen focused only on whether a

16
nonsignatory could enforce the arbitral clause under
“traditional principles” of contract and agency law,
without ever addressing the breadth of its earlier
holdings.
As a result, courts throughout the country,
including the Ninth Circuit, conflate the analysis of a
party’s right to stay litigation with that party’s right to
compel arbitration. Arthur Andersen’s unintended
consequence may have been to narrow the availability
of stays of litigation under Section 3, and this Court’s
likely emphasis on equitable estoppel again in the GE
Power case will only encourage further conflation.
Especially with respect to foreign defendants,
determining whether there is “any issue referable to
arbitration” should be a simpler task for district courts
if that issue does not also turn on whether that foreign
defendant has the right to compel arbitration, which
right may often be dependent upon principles of foreign
law.
By granting SS LLP’s petition on the second issue
presented here, this Court can clarify that while the
right to compel arbitration may require the nonsignatory to show some recognized relationship with a
signatory, the right to stay the litigation requires no
such showing. Rather, pursuant to Congress’ plain
language in Section 3, and this Court’s earlier holdings,
a party moving for a stay should only be required to
show that the litigation against it involves an issue
that the opposing party is required to arbitrate (i.e., is
“referable to arbitration”), and that the issue will
impact the outcome of the claims against the moving
party. Upon such a showing, the court “shall . . . stay

17
the trial of the action until such arbitration has been
had.” 9 U.S.C. § 3.
Even the most casual survey of case law under the
FAA shows that courts struggle with determining what
relationships suffice to allow enforcement of arbitration
agreements by or against non-signatories. That
struggle becomes more difficult when foreign law
governs that relationship, as is often the case with
agreements subject to the Convention. By returning
Section 3’s the focus to where it belongs, i.e, on whether
an issue in the litigation may be within the scope of an
arbitration clause, such that an arbitrator, rather than
a district court judge, should consider the issue in the
first instance, this Court can make district courts’
analysis easier, and fulfill Congress’ intent “to move
the parties to an arbitrable dispute out of court and
into arbitration as quickly and easily as possible.”
Moses H. Cone Mem. Hosp., 460 U.S. at 22.
I.

THE COURTS OF APPEALS ARE DIVIDED
ON WHETHER NONSIGNATORIES CAN
COMPEL ARBITRATION UNDER THE
NEW YORK CONVENTION.
A. The First and Fourth Circuits Have
Held That Nonsignatories Can Enforce
Arbitration Agreements Under the New
York Convention.

In Sourcing Unlimited, Inc. v. Asimco Int’l, Inc.,
526 F.3d 38 (1st Cir. 2008), the First Circuit held that
the Convention incorporates the doctrine of equitable
estoppel. There, the court applied the doctrine to
compel arbitration of claims against a nonsignatory

18
defendant by an entity that had an arbitration
agreement with the defendant’s corporate parent,
because the plaintiff’s claims were “sufficiently
intertwined with” the contract between the plaintiff
and the corporate parent. Id. at 48.
The Fourth Circuit has also twice held that
equitable estoppel applies to arbitration agreements
subject to the Convention. See Aggarao v. MOL Ship
Mgmt. Co., 675 F.3d 355 (4th Cir. 2012); Int’l Paper
Co. v. Schwabedissen Maschinen & Anlagen GMBH,
206 F.3d 411 (4th Cir. 2000).
Aggarao involved a plaintiff injured while employed
aboard a ship. Plaintiff brought his claims against
both his employer (a signatory) and other entities
associated with the ship (nonsignatories). Applying
traditional principles of equitable estoppel, the Fourth
Circuit held the Convention allowed “a nonsignatory to
an arbitration clause [to] compel a signatory to the
clause to arbitrate the signatory’s claims against the
nonsignatory despite the fact that the signatory and
nonsignatory lack[ed] an agreement to arbitrate.”
675 F.3d at 375 (citations omitted).
International Paper involved a distribution chain.
“Well-established common law principles,” the Fourth
Circuit reasoned, “dictate that in an appropriate case
a nonsignatory can enforce, or be bound by, an
arbitration provision within a contract executed by
other parties.” 206 F.3d at 416-17. Those principles
“also appl[y] to nonsignatories to arbitration
agreements governed by the Convention.” Id. at 418
n.7. Because the plaintiff sought to benefit from the

19
contract at issue, the plaintiff was equitably estopped
from avoiding arbitration. Id. at 418.
B. The Ninth and Eleventh Circuits Have
Held That Nonsignatories Cannot
Enforce Arbitration Agreements Under
the New York Convention.
The Ninth Circuit’s decision in this case (Pet. App.
1-4) relied entirely on its previous decision in Yang,
which, like Aggarao, involved a maritime suit against
a nonsignatory to an employment agreement
containing an arbitration clause. Yang, 876 F.3d.
at 998. In Yang, the Ninth Circuit held that “the
Convention Treaty does not allow nonsignatories or
non-parties to compel arbitration.” Id. at 1001. The
Ninth Circuit held that cases interpreting Chapter 1 of
the FAA “offer no guidance in interpreting the
Convention Act’s requirement that an agreement in
writing be signed by the parties.” Id. at 1002. In the
Ninth Circuit’s view, “[t]o the extent [Chapter 1 of] the
FAA provides for arbitration of disputes with nonsignatories or non-parties, it conflicts with the
Convention Treaty and therefore does not apply.” Id.
(citing 9 U.S.C. § 208). The Ninth Circuit repeated
that reasoning here. Pet. App. 3-4.
The Eleventh Circuit adopted the same rule as the
Ninth Circuit in the context of a subcontracting
arrangement. Outokumpu Stainless USA, LLC et al. v.
Converteam SAS, 902 F.3d 1316 (11th Cir 2018). In so
doing, the Eleventh Circuit followed the Ninth Circuit’s
reasoning that the Convention’s requirement of an
“agreement in writing” meant an agreement “signed by
the parties.” Outokumpu, 902 F.3d at 1325-26.

20
This Court granted GE Power’s petition to review
the Eleventh Circuit’s decision. GE Power Conversion
France SAS, Corp. v. Outokumpu Stainless USA, LLC,
139 S. Ct. 2776 (Mem) (U.S. Sup. Ct. June 28, 2019).
It should also grant SS LLP’s petition to review the
Ninth Circuit’s opinion here, and decide that division
of authority.
II.

THE NINTH CIRCUIT’S DECISION
CONFLICTS WITH THIS COURT’S
DECISIONS REGARDING THE RIGHT TO
A STAY UNDER SECTION 3 OF THE FAA.

The Ninth Circuit’s holding that SS LLP
categorically had no right to a Section 3 stay because,
as a non-signatory, it cannot compel arbitration under
the Convention conflicts with this Court’s previous
holdings regarding the scope and applicability of
Section 3. This Court’s earliest decisions interpreting
that section held that the right to a stay is not
conditioned on the right to compel. Shanferoke Coal,
293 U.S. at 453; The Anaconda, 322 U.S. at 45. Shortly
after the United States signed on to the Convention,
this Court confirmed that Section 3 continued to govern
the right to stay even when the Convention may apply.
Scherk, 417 U.S. at 511. And in Arthur Andersen, this
Court held that non-signatories can stay litigation
under Section 3 when “traditional principles” of state
law allow that non-signatory to enforce the arbitration
agreement. 556 U.S. at 630-31.
Hence, this Court has concluded that a party’s right
to stay litigation under Section 3 of the FAA is not
dependent on whether that party also has a right to
compel arbitration, and certainly is not dependent on

21
whether that party is a signatory to the arbitration
agreement. But as explained below, this Court’s casespecific reliance on principles of equitable estoppel in
its Arthur Andersen decision and its likely emphasis on
that issue again in the upcoming GE Power case may
unintentionally limit the availability of stays under
Section 3, and undermine the utility and enforceability
of arbitration agreements.
In enacting the FAA, Congress assumed that
Section 3 stays would be used to “stop a lawsuit begun
by the party resisting arbitration, and then, if the stay
didn’t induce him to arbitrate, . . . the party wanting
arbitration would bring a separate action under section
4.” Matterhorn, Inc. v. NCR Corp., 763 F.2d 866, 871
(7th Cir. 1985) (citing S. Rep. No. 536, 68th Cong., 1st
Sess. 3 (1924)). Thus, as originally envisioned,
Congress expected Section 3’s stay provision to be the
primary enforcement mechanism against those who
sought to evade their arbitration obligation by suing in
federal courts on “issues referable to arbitration.”
This Court confirmed that expectation.
In
Shanferoke Coal, this Court considered the question of
whether a federal court that might not be able to
compel arbitration could nonetheless issue a stay of
litigation under Section 3. Shanferoke Coal, 293 U.S.
at 452. There, the arbitration agreement between the
plaintiff and defendant provided that only the Supreme
Court of the State of New York could order arbitration.
Id. When the plaintiff sued instead in federal court,
the defendant moved only for a stay of litigation under
Section 3 (rather than to compel arbitration under
Section 4). This Court approved of that approach:

22
Section 3 of the United States Arbitration Act
provides broadly that the court may “stay the
trial of the action until such arbitration has been
had in accordance with the terms of the
agreement.” We think the Court of Appeals was
clearly right in concluding that there is no
reason to imply that the power to grant a stay is
conditioned upon the existence of power to
compel arbitration in accordance with § 4 of the
Act. . . .. There is, on the other hand, strong
reason for construing the clause as permitting
the federal court to order a stay even when it
cannot compel the arbitration.
Id. at 452-53 (internal citations omitted).
A decade later, this Court again examined Section
3, and again confirmed that a party’s right to stay
litigation is not predicated on its right to compel
arbitration: “The concept seems to be that a power to
grant a stay is enough without the power to order that
the arbitration proceed, for, if a stay be granted, the
plaintiff can never get relief unless he proceeds to
arbitration.” The Anaconda, 322 U.S. at 45. As more
recently explained by the Seventh Circuit, “[a] plaintiff
who wants arbitration moves for an order to arbitrate.
A defendant who wants arbitration is often content
with a stay [pursuant to Section 3], since that will
stymie the plaintiff’s effort to obtain relief unless he
agrees to arbitrate.” Cabinetree of Wis., Inc. v.
Kraftmaid Cabinetry, Inc., 50 F.2d 388, 389 (7th Cir.
1995) (citations omitted).
The Court revisited Section 3 again shortly after
Congress adopted the Convention. See Scherk, 417

23
U.S. at 520 n. 15 (describing how the United States
acceded to the Convention in 1970, and Congress then
enacted Chapter 2 of the FAA). In Scherk, the district
court refused to stay the litigation while the parties
arbitrated certain claims before the International
Chamber of Commerce in Paris, France, and indeed
enjoined the parties from proceeding with that
arbitration.2 Scherk, 417 U.S. at 510. This Court
reversed, approving the continued application of
Section 3 even after adoption of the Convention,3 and
noting the importance of allowing disputes involving
foreign nationals to be decided by arbitration:
A contractual provision specifying in advance
the forum in which disputes shall be litigated
and the law to be applied is, therefore, an almost
indispensable precondition to achievement of the
orderliness and predictability essential to any
international business transaction.
Furthermore, such a provision obviates the
danger that a dispute under the agreement
might be submitted to a forum hostile to the
interests of one of the parties or unfamiliar with
the problem area involved.
Scherk, 417 U.S. at 517.

2

Like the situation here, the plaintiff’s lawsuit involved claims
that the defendant had made fraudulent representations regarding
trademarks. Scherk, 417 U.S. at 509.
3

The Convention has no provisions regarding stays, thus although
Section 3 “is part of Chapter 1 of the FAA, it is applicable to cases
under Chapter 2 and the Convention.” Alghanim v. Alghanim, 828
F. Supp. 2d 636, 643 (S.D.N.Y. 2011).

24
But the Court’s more recent examination of stays
under Section 3 may have muddied the clarity of its
own previous holdings. In Arthur Andersen, this Court
accepted a petition for certiorari on the following issue:
Whether Section 3 of the FAA allows a district
court to stay claims against non-signatories to
an arbitration agreement when the nonsignatories can otherwise enforce the arbitration
agreement under principles of contract and
agency law, including equitable estoppel.
Arthur Andersen, LLP v. Carlisle, No. 08-146, 2008 WL
3199724, at *i (U.S. Aug. 4, 2008).
Accordingly, the Court’s opinion only discussed
situations where the nonsignatory could otherwise
enforce the agreement using (e.g.) equitable estoppel:
“Because ‘traditional principles’ of state law allow a
contract to be enforced by or against non-parties to the
contract through ‘assumption, piercing the corporate
veil, alter ego, incorporation by reference, third-party
beneficiary theories, waiver and estoppel,’ the Sixth
Circuit’s holding that nonparties to a contract are
categorically barred from § 3 relief was error.” Arthur
Andersen, 566 U.S. at 631 (quoting 21 R. Lord,
Williston on Contracts § 57:19, at 183 (4th Ed. 2001)).
This Court also implicitly rejected the reasoning
applied by the Ninth and Eleventh Circuits to the New
York Convention’s “agreement in writing” language:
Respondents argue that, as a matter of federal
law, claims to arbitration by non-parties are not
“referable to arbitration under an agreement in
writing,” 9 U.S.C. § 3 (emphasis added), because

25
they “seek to bind a signatory to an arbitral
obligation beyond that signatory’s strict
contractual obligation to arbitrate.” Perhaps
that would be true if § 3 mandated stays only for
disputes between parties to a written arbitration
agreement. But that is not what the statute
says. It says stays are required if the claims are
“referable to arbitration under an agreement in
writing.” If a written arbitration provision is
made enforceable against (or for the benefit of)
a third party under state contract law, the
statute’s terms are fulfilled.
Arthur Andersen, 566 U.S. at 630-31 (internal citations
omitted).
Because the petition for certiorari in Arthur
Andersen asked this Court to examine only whether
nonsignatories “who can otherwise enforce the
arbitration agreement” using traditional state law
principles are entitled to a Section 3 stay, this Court
had no reason to re-examine its earlier broader
holdings in Shanferoke Coal and The Anaconda.
Indeed, this Court’s Arthur Andersen decision did not
even cite to those precedents. But this Court did
foreclose the ability of non-parties to the litigation
(such as Nagraj Setty here) to seek such a stay: “we
would not be disposed to believe that [Section 3 of the
FAA] allows a party to the contract who is not a party
to the litigation to apply for a stay of the proceeding.”
566 U.S. at 630 n.4.
Hence, this Court’s Section 3 holdings teach (1) that
a nonsignatory party’s right to obtain a Section 3 stay
is not conditioned upon that party’s right to compel

26
arbitration (whether under Section 4 or the New York
Convention) but (2) an actual signatory to the
arbitration agreement who is not sued in federal court
has no standing to pursue a stay of existing litigation,
even if the issues may be otherwise “referable to
arbitration.”
A defendant’s status as a party (or potential party)
to the arbitration should not govern the analysis under
Section 3 of the FAA. Certainly, a defendant who can
enforce the arbitration agreement through “traditional
principles” of law will be entitled to a stay, so long as
some issue in the litigation is referable to arbitration
under that agreement. But as this Court implicitly
recognized in Shanferoke Coal and Arthur Andersen,
Congress used the passive voice (“issues referable to
arbitration”) in Section 3 for a reason—the right to
obtain a stay is not dependent on a party’s right to
compel arbitration. The only thing a defendant has to
show to obtain a Section 3 stay is that the plaintiff’s
claims involve an issue that the plaintiff has agreed to
arbitrate, whether or not that defendant will be a party
to the arbitration. By prohibiting a plaintiff from
pursuing issues in federal court that the plaintiff
agreed to arbitrate, Section 3’s stay provision ensures
the primacy of arbitration. E.g., Dean Witter Reynolds,
Inc. v. Byrd, 470 U.S. 213, 221 (1985) (when litigation
involves both arbitrable and nonarbitrable issues,
arbitration should still proceed).
Regardless of whether the Ninth Circuit was correct
in holding that foreign nonsignatories such as SS LLP
have no right to compel arbitration under the New
York Convention, the Ninth Circuit was wrong (and

27
disregarded this Court’s previous decisions) in holding
that foreign nonsignatories also have no right to stay
the litigation under Section 3.
III.

THE QUESTIONS
IMPORTANT.

PRESENTED

ARE

The FAA reflects an “emphatic federal policy in
favor of arbitral dispute resolution” Mitsubishi Motors
Corp. v. Soler Chrysler-Plymouth, Inc., 473 U.S. 614,
631 (1985). Likewise, the New York Convention’s goal
is to “encourage the recognition and enforcement of
commercial arbitration agreements in international
contracts and to unify the standards by which
agreements to arbitrate are observed . . . in the
signatory countries.” Scherk, 417 U.S. at 520 n.15.
Congress’s policy in favor of arbitration should “appl[y]
with special force in the field of international
commerce.” Mitsubishi Motors, 473 U.S. at 631.
This Court has already recognized the importance
of the first issue by accepting the petition for certiorari
in GE Power. The Ninth Circuit’s decision here renders
arbitration agreements subject to the New York
Convention less effective than their domestic
counterparts. Compare, e.g., Allianz Global Risk
U.S. Ins. Co. v. Gen. Elec. Co., 470 Fed. Appx. 652, 654
(9th Cir. 2012) (affirming District Court’s grant of
domestic nonsignatory’s motion to compel arbitration
based on equitable estoppel principles). A circuit split
about the ability of nonsignatories to enforce
international arbitration agreements creates exactly
the kind of enforcement uncertainty that the New York
Convention was designed to combat.

28
The Convention’s purpose is to “encourage the
recognition and enforcement of commercial arbitration
agreements in international contracts and . . . unify the
standards by which agreements to arbitrate are
observed . . . in the signatory countries.” Scherk,
417 U.S. at 520 n.15. To fulfill those purposes,
arbitration agreements subject to the New York
Convention must be enforceable to at least the same
degree as domestic agreements.
For arbitral
agreements subject to the Convention (which will
almost always involve at least one foreign signatory,
9 U.S.C. § 202), the agreement may very well be
governed by the laws of a foreign jurisdiction.
Determining whether foreign nonsignatory defendants
can compel arbitration under the New York Convention
is an issue of paramount national (and international)
importance, which importance this Court has already
recognized by accepting a similar petition on the same
issue in GE Power.
But reiterating to federal courts that a
nonsignatory’s right to stay litigation under Section 3
is not dependent on whether that party can compel
arbitration is equally important, and may have even
broader application, especially with respect to
agreements subject to the Convention.
District courts faced with a stay motion should not
have to engage in difficult determinations regarding
which nonsignatories should be considered “parties” to
an arbitral agreement such that they can compel
arbitration, whether by using domestic principles (such
as equitable estoppel) or principles of applicable foreign
law. Section 3 is focused only on whether the claims

29
against the moving party raise an “issue referable to
arbitration,” regardless of whether that party can
compel arbitration. Once a nonsignatory demonstrates
such an issue, the court “shall . . . stay the trial of the
action until such arbitration be had.” 9 U.S.C. § 3.4
By confirming that focus, this Court can give
district courts an easier task in deciding stay motions.
Under the FAA, “an arbitration agreement must be
enforced notwithstanding the presence of other persons
who are parties to the underlying dispute but not to the
arbitration agreement.” Moses H. Cone Mem’l Hosp.,
460 U.S. at 20. Any doubts about whether the issue is
arbitrable should be resolved in favor of arbitration.
Id. at 24-25. “[A]s with any other contract, the parties’
intentions control, but those intentions are generously
construed as to issues of arbitrability.” Mitsubishi
Motors, 473, U.S. at 626. That presumption in favor of
arbitration applies with “special force” when the
agreement is subject to the Convention. Id. at 631.
If the litigation involves an “issue referable to
arbitration,” Section 3 mandates a stay. The signatory
to the agreement is then faced with a choice: arbitrate
with its counterparty (whether or not that is the party
who moved for a stay), or abandon the issue to proceed
again in court against the nonsignatory; either way, the
primacy of arbitration is protected. E.g., Invista
S.A.R.L., 625 F.3d at 85-86 (arbitrators decided which
issues were arbitrable against which parties, mooting

4

Although the statute says stay the “trial,” courts interpret that
to include most pretrial proceedings as well. Corpman v.
Prudential-Bache Securities, Inc., 907 F.2d 29, 31 (3rd Cir. 1990).

30
nonsignatory’s appeal of denial of motion to stay).
Returning Section 3 to Congress’s and this Court’s
original understanding that the right to a Section 3
stay does not depend on the right to compel arbitration
will make district courts’ decisions regarding stay
motions easier.
This Court often grants certiorari to ensure the
consistent enforcement of arbitration agreements—
including in the international context. See, e.g.,
BG Grp., PLC v. Republic of Argentina, 134 S. Ct. 1198,
1205 (2014) (granting certiorari “[g]iven the importance
of the matter for international commercial
arbitration”); New Prime Inc. v. Oliveira, No. 17-340,
2019 WL 189342, at *9 (U.S. Jan. 15, 2019) (“grant[ing]
certiorari only to resolve existing confusion about the
application of the Arbitration Act”); Henry Schein,
Inc. v. Archer & White Sales, Inc., 139 S. Ct. 524, 528
(2019) (granting certiorari “[i]n light of disagreement in
the Courts of Appeals over whether the ‘wholly
groundless’ exception is consistent with the Federal
Arbitration Act”). It should do the same here.
IV.

THE NINTH CIRCUIT’S DECISION IS
WRONG.

The decision below is wrong, as was the Ninth
Circuit’s earlier decision in Yang. Those decisions
misconstrue the New York Convention and the FAA,
leaving international arbitration agreements with less
protection than domestic agreements.
Chapter 2 of the FAA (implementing the
Convention) states that “Chapter 1 applies to actions
and proceedings brought under this chapter to the

31
extent that chapter is not in conflict with this chapter
or the Convention as ratified by the United States.”
9 U.S.C. § 208. As this Court has recognized, the
provisions of Chapter 1 “allow a contract to be enforced
by or against nonparties to the contract through,” by,
among other mechanisms, equitable estoppel. Arthur
Andersen, 556 U.S. at 631. Chapter 1 thus permits
enforcement of a domestic arbitration clause “against
(or for the benefit of) a third party” nonsignatory, id.,
where, as here, “a signatory to the written agreement
[i.e., respondent Balkrishna Setty] must rely on the
terms of that agreement in asserting its claims against
the nonsignatory.” 21 Williston on Contracts § 57:19.
Neither the Convention nor Chapter 2 of the FAA
speaks to the availability of equitable estoppel or other
common-law enforcement mechanisms, nor does the
Convention mention stays of litigation. There is no
conflict here.
Rather, the Indian signatories to the arbitration
agreement—nonparty Nagraj Setty and respondent
Balkrishna Setty—agreed that “[a]ll disputes of any
type whatsoever in respect of the partnership arising
between the partners” shall be arbitrated “as per the
provision of the Indian Arbitration Act, 1940 or any
statutory modification thereof for the time being in
force.” Pet. App. 14. Indian common law, as well as
the most recent version of the Indian Arbitration Act,
explicitly allows nonsignatories to enforce arbitration
agreements. Under Indian law, “[e]ven non-signatory
parties to [arbitral] agreements can pray and be
referred to arbitration . . .” Chloro Controls India (P),
Ltd. v. Severn Trent Water Purification, Inc., (2013)

32
1 SCC 641, ¶ 167. The most recent 2015 “statutory
modification” of the 1940 Indian Arbitration Act allows
“parties” to the arbitration agreement, as well as “any
person claiming through or under” a party, to be
referred to arbitration. The Indian Arbitration and
Conciliation (Amendment) Act, 2015, § 4. SS LLP is a
“person claiming through or under” a party to the Deed
of Partnership (i.e., through its owner, Nagraj Setty).
The enforceability of such agreements should not
depend on the domestic law of the jurisdiction in which
enforcement is sought. Scherk, 417 U.S. at 516.
Rather, parties specify in their contracts the laws of a
foreign jurisdiction to avoid “the danger that a dispute
under the agreement might be submitted to a forum
hostile to the interests of one of the parties or
unfamiliar with the problem areas involved.” Id. at
516.
Under Indian law, the signatories to the Deed of
Partnership agreed to the broadest possible arbitration
clause available: “[a]ll disputes of any type whatsoever
in respect of the partnership . . . .” Pet. App. 27. To
those who come from a legal regime derived from the
laws of the England and Wales (such as the Indian
parties here), “in respect of” is to be construed as
broadly as possible in favor of arbitration. Heyman v.
Darwins, Ltd., [1942] A.C. 356, 360, 366 (House of
Lords); Branch Manager, Magma Leasing and Finance
Ltd. and Anr. v. Potluri Madhavilata and Anr., (2009)
10 SCC 103 (Indian Supreme Court); see also AT&T
Technologies, Inc. v. Communications Workers, 475
U.S. 643, 650 (1986) (recognizing that a clause
requiring arbitration “with respect to” the

33
interpretation or performance of the contract was a
broad clause giving rise to a presumption of
arbitrability).
Under Indian law, the Deed of Partnership’s
arbitration clause should encompass respondent
Balkrishna Setty’s and his company BNG LLC’s claims
against nonsignatory SS LLP, and SS LLP should be
entitled to enforce that arbitration requirement.
Instead, the Ninth Circuit’s decision puts SS LLP and
all other foreign defendants sued in on issues arising
out of foreign arbitral agreements in a legal no-man’sland, unable to compel arbitration (because they are
not signatories) and also unable to stay the claims
against them, even though a federal court is being
asked to decide a dispute “referable to arbitration.” 9
U.S.C. § 3.
The Ninth Circuit here relied on its earlier decision
in Yang, which in turn examined the Convention’s
requirement that an arbitration agreement be “signed
by the parties” to be enforceable.
New York
Convention, Article II, § 2. But that provision only
prohibits unwritten arbitration agreements. Once an
“agreement in writing” exists—i.e., one “signed by the
parties” to that agreement even if those parties are not
all before the court—Article II § 2 is satisfied; that
provision says nothing about who can enforce the
agreement.
Moreover, the New York Convention has no
provisions for staying litigation, so there can never be
a conflict between it and Section 3. And this Court has
already decided that there is no such signatory
requirement with respect to relief under Section 3.

34
Arthur Andersen, 556 U.S. at 630-31; accord
Contracting NW v. City of Fredericksburg, 713 F.2d
382, 386-87 (8th Cir. 1983) (Section 3 is “broad enough
to permit the stay of litigation between nonarbitrating
parties as long as that lawsuit is based on issues
referable to arbitration”). Simply put, by importing a
signatory requirement back into Section 3, the Ninth
Circuit here directly contradicted Arthur Anderson’s
holding.
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Brian W. Esler
Counsel of Record
MILLER NASH GRAHAM & DUNN, LLP
2801 Alaskan Way, Suite 300
Seattle, WA 98121
(206) 624-6300
brian.esler@millernash.com
Counsel for Petitioner
November 12, 2019

